           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



        ADMINISTRATIVE
     COSTS CLAIMED BY THE
       NEVADA DISABILITY
    DETERMINATION SERVICES

     August 2004   A-09-04-14009




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM
Date:   August 10, 2004                                                                   Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Nevada Disability Determination Services
        (A-09-04-14009)

        OBJECTIVE

        The objectives of our audit were to evaluate internal controls over the accounting and
        reporting of administrative costs and drawdowns, determine whether costs claimed on
        the State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513)
        for the period October 1, 2000 through September 30, 2002, were allowable and
        properly allocated, and assess limited areas of the general security controls
        environment.

        BACKGROUND
        The Disability Insurance program was established in 1954 under Title II of the
        Social Security Act (Act). The Disability Insurance program provides benefits to wage
        earners and their families in the event the wage earner becomes disabled. In 1972,
        Congress enacted the Supplemental Security Income program under Title XVI of the
        Act. The Supplemental Security Income program provides benefits to financially needy
        individuals who are aged, blind, or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies
        for the development of disability claims under the Disability Insurance and Supplemental
        Security Income programs. Disability determinations under both Disability Insurance
        and Supplemental Security Income are performed by Disability Determination Services
        (DDS) in each State or other responsible jurisdiction in accordance with Federal
        regulations.1 In carrying out its obligation, each DDS is responsible for determining
        claimants’ disabilities and ensuring adequate evidence is available to support its
        determinations. To assist in making proper disability determinations, each DDS is
        authorized to purchase medical examinations, x-rays and laboratory tests on a
        1
            20 C.F.R. part 404, subpart Q (April 2003), and part 416, subpart J (April 2003).
Page 2 – Peter D. Spencer

consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments system for
program expenditures. Funds drawn down must comply with Federal regulations and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.2 At the end of each quarter of the fiscal year
(FY), each DDS submits a Form SSA-4513 to account for program disbursements and
unliquidated obligations.

Nevada Disability Determination Services (NV-DDS) is a component of the Bureau of
Disability Adjudication. The Bureau of Disability Adjudication is a division within the
Nevada Department of Employment, Training and Rehabilitation (NV-DETR). Parent
agencies, such as the NV-DETR, often provide such administrative services as
accounting, purchasing and personnel to the State-designated DDS.

                                    State of Nevada
                   Organizational Chart for Department of Employment,
                               Training and Rehabilitation
                                                                                                          Chief Auditor

                                                                                               Boards, Councils and Commissions
                                                                      Director
                                                                                            Workforce Investment Act Representative

                                                                                                        Clerical Support




                       ASSISTANT TO DIRECTOR                                                   ASSISTANT TO DIRECTOR
                                                                   Board of Review
                     Business and Customer Services                                              Administrative Services



      Employment     Nevada                                    Public                 Information Development               Special Project Manager
                                        Rehabilitation
       Security    Equal Rights                             Information                and Processing Division             Human Resources Manager
       Division    Commission             Division             Officer                                                       Chief Financial Officer


                    Client Assistance           Bureau of Services to the Blind and
                        Program                         Visually Impaired

                       Bureau of
                                                    Community Based Services
                       Vocational

                       Advisory                                                          Nevada DDS
                                                  Bureau of Disability Adjudication
                      Commission                                                          Operations




For FYs 2001 and 2002, NV-DDS had about 64 employees, and NV-DETR reported
total disbursements of $14.49 million with no unliquidated obligations.

2
    31 C.F.R. part 205 (May 2004) and Pub. L. No. 101-453 § 6503; 31 U.S.C. § 6503 (2004).
Page 3 – Peter D. Spencer

RESULTS OF REVIEW
NV-DETR and NV-DDS generally had adequate controls over the $14.49 million
claimed for reimbursement during the 2-year audit period ended September 30, 2002.
However, NV-DETR used FY 2002 funds to pay for some FY 2003 expenditures. In
addition, NV-DDS had no intrusion detection system to ensure protection of equipment
and information and did not set adequate workstation security controls for three of its
employees.

Incorrect Fiscal Year Payments

NV-DETR withdrew some Federal funds for expenditures for the incorrect FY. In
October 2002, NV-DETR withdrew $23,098 from the FY 2002 authorization to cover
FY 2003 rental expenditures. NV-DETR returned these funds to the FY 2002
authorization on November 4, 2002. The supporting documentation for the return of the
FY 2002 funds stated the expenditures had been “coded to the wrong FY – due to no
funds for the new year.”

This occurred, in part, because NV-DETR did not request additional funding authority
from SSA. Although these funds were subsequently returned to the applicable
authorization, NV-DETR should not have used the funds of one FY to pay for the
expenditures of another FY. NV-DETR needs to improve its accountability over Federal
funds to ensure such funds are drawn for authorized purposes only.

Federal law states:

          …the balance of an appropriation or fund limited for obligation to a definite
          period is available only for payment of expenses properly incurred during
          the period of availability…the appropriation or fund is not available for
          expenditure for a period beyond the period otherwise authorized by law. 3

Improperly shifting costs between FYs potentially impacts total expenditures authorized
for reimbursement. The procedure also prevents SSA from accurately monitoring the
status of DDS expenditures and unexpended appropriations. The effect is to reduce the
Agency’s ability to manage the allocation and use of budgeted funds among DDSs.




3
    31 U.S.C. §1502(a) (2004).
Page 4 – Peter D. Spencer

Perimeter and Interior Office Security

While reviewing the general security controls, we determined NV-DDS did not have an
intrusion detection system to protect equipment and prevent unauthorized access to
sensitive SSA data. Further, the building did not have a 24-hour guard and was not
located in a Federal building.

The Disability Determination Services Security Document states an intrusion detection
system is required in all facilities unless determined unnecessary.4 For example, if a
DDS is located in a Federal building with 24-hour guard service.

As a result, equipment and sensitive SSA data were not protected against unauthorized
access and use. We believe SSA should instruct NV-DDS to acquire an intrusion
detection system or provide justification supporting why one is unnecessary.

Workstation Security Controls

NV-DDS did not have an automatic lock to secure 3 of the 14 employee computer
workstations we tested. The three employees had access to most NV-DDS systems.
NV-DDS needs to strengthen its systems controls to protect against the unauthorized
disclosure, manipulation, or destruction of sensitive data.

SSA’s procedures require that the DDS install an automatic lock on all Intelligent
Workstation/Local Area Network workstations. In August 2002, the SSA regional office
issued a memorandum requiring that NV-DDS implement SSA’s systems policy,
including an automatic lock and uniform configuration settings for each workstation.
Specifically, the DDS should use a standardized screensaver to automatically lock the
workstation when it is not in use for 20 minutes. Employees must enter a personal
identification number or password to reactivate their access to the workstation. In
addition, all employees are required to lock or log off their workstations before leaving
them unattended.5

During our audit, we tested 14 workstations and found that 3 did not ensure
an automatic lock would occur if the workstation was left unattended for 20 minutes.
The three workstations had the broadest authority to access NV-DDS’ systems. In
addition, we observed that a number of NV-DDS employees did not lock or log off their
workstations before they left their desks. Since employee workstations were unsecured
and unattended, there was an increased risk that sensitive SSA data may have been
altered, deleted, or replaced.



4
 Disability Determination Services Security Document, section VII, Physical Security, Internal Office
Security, July 30, 2001, page 20.
5
  SSA, Systems Security Bulletin, October 13, 1999, and Systems Security Handbook, chapter 10,
section B.
Page 5 – Peter D. Spencer

CONCLUSION AND RECOMMENDATIONS
The NV-DETR and NV-DDS had adequate internal controls over the accounting and
reporting of administrative costs. However, NV-DETR used FY 2002 funds to pay for
FY 2003 expenditures, and NV-DDS needed to establish an intrusion detection system
to ensure protection of equipment and information and set access controls for three of
its employees.

We recommend that SSA:

1. Remind NV-DETR that drawing funds from one FY to pay for the expenditures of
   another FY is not allowable under Federal law.

2. Instruct NV-DDS to acquire an intrusion detection system or provide justification
   supporting why one is unnecessary to protect equipment and prevent unauthorized
   access to sensitive SSA data.

3. Verify that NV-DDS has implemented an automatic lock to safeguard all employee
   workstations.


AGENCY COMMENTS
SSA and NV-DDS agreed with all of our recommendations. See Appendix B for the text
of SSA’s and NV-DDS’ comments.




                                               S
                                               Steven L. Schaeffer
                              Appendices
APPENDIX A – Acronyms

APPENDIX B – Agency Comments

APPENDIX C – Scope and Methodology

APPENDIX D – Obligations Reported/Allowable for Nevada Disability Determination
             Services for Fiscal Years 2001 and 2002, as of June 5, 2003.

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act                                    Social Security Act

C.F.R           Code of Federal Regulations

DDS             Disability Determination Services

Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs

FY              Fiscal Year

NV-DDS          Nevada Disability Determination Services

NV-DETR         Nevada Department of Education, Training and Rehabilitation

Pub. L. No.     Public Law Number

SSA             Social Security Administration

Treasury        Department of the Treasury

U.S.C.                           United States Code
                  Appendix B

Agency Comments
                                SOCIAL SECURITY
MEMORANDUM

Date:      July 21, 2004                                          Refer To:   S2D9G4


To:        Assistant Inspector General
           for Audit

From:      Assistant Regional Commissioner
           Management and Operations Support
           San Francisco

Subject:   Audit of Administrative Costs Claimed by the Nevada Disability Determination Services
           (A-09-04-14009)--REPLY

           Thank you for the opportunity to review the draft report of your audit of the Nevada
           Disability Determination Services. As you requested, we are providing our specific
           written comments for each of the three recommendations contained in the draft report.
           Please see Attachment 1 below. We have also attached the comments the State
           submitted.

           If you have any questions regarding our comments, please call me, at (510) 970-8390.
           If staff have any questions, they may call Diane Trewin in the Center for Disability, at
           (510) 970-8295.



                                                    /s/
                                             Ron Sribnik for
                                             Patrick E. Sheehan

           Attachments




                                               B-1
                                                                        Attachment 1

     Regional Office Comments on the Nevada DDS Draft Audit Report


Recommendation 1: Remind the Nevada Department of Employment,
Training and Rehabilitation (DETR) that drawing funds from one Fiscal
Year to pay for the expenditures of another Fiscal Year is not allowable
under Federal law.

Comment: We find this recommendation reasonable. The long standing
regional policy is that the States notify the Regional Office if they require
additional funding for a Fiscal Year.

Recommendation 2: Instruct the Nevada Disability Determination
Services (DDS) to acquire an intrusion detection system or provide
justification supporting why one is unnecessary to protect equipment and
prevent unauthorized access to sensitive SSA data.

Comment: We find this recommendation reasonable.

Recommendation 3: Verify that the DDS has implemented an automatic
lock to safeguard all employee workstations.

Comment: We agree with this recommendation. Regional Office staff will
verify that the automatic lock has been implemented.




                                      B-2
      Attachment 2




B-3
B-4
                                                                      Appendix C

Scope and Methodology
SCOPE

We reviewed the administrative costs reported by Nevada Department of Education,
Training and Rehabilitation (NV-DETR) and its component Nevada Disability
Determination Services (NV-DDS) on its State Agency Report of Obligations for SSA
Disability Programs (Form SSA-4513) for Fiscal Years (FY) 2001 and 2002. For the
items tested, we reviewed NV-DETR’s and NV-DDS’ compliance with applicable laws
and regulations over the allowability of administrative costs and draw down of Federal
funds.

To accomplish our objectives, we:

•   Reviewed Office of Management and Budget Circular A-87, Cost Principles for
    State, Local, and Indian Tribal Governments; the Code of Federal Regulations;
    United States Code; the Social Security Administration’s (SSA) Program Operations
    Manual System; and NV-DETR’s Cost Allocation Plan.

•   Reviewed NV-DDS’ policies and procedures related to personnel, medical, indirect,
    and non-personnel costs.

•   Interviewed employees from SSA; the Department of Labor; NV-DETR; NV-DDS;
    and Kafoury, Armstrong and Company, Certified Public Accountants.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures.

•   Examined the administrative costs incurred and claimed by NV-DETR for personnel,
    medical, indirect, and non-personnel costs during FYs 2001 and 2002.

•   Selected a random sample of personnel, medical, and non-personnel costs.

•   Reconciled the accounting records to the costs reported by NV-DETR on its
    Form SSA-4513 for FYs 2001 and 2002.

•   Conducted limited general control testing related to physical access security and
    security plan within the DDS.

We determined NV-DETR’s computer-processed data to be sufficiently reliable for their
intended use. Further, any data limitations are minor in the context of this assignment,
and the use of the data should not lead to an incorrect or unintentional message. We


                                           C-1
tested cash draw receipts and disbursements recorded in the NV-DETR's automated
accounting system made on behalf of NV-DDS. We completed tests to determine the
completeness, accuracy and validity of the data. These tests allowed us to assess the
reliability of the data and achieve our audit objectives.

We performed audit work at NV-DETR and NV-DDS in Carson City, Nevada. In
addition, we reviewed Nevada single audit work performed by Kafoury, Armstrong and
Company, Certified Public Accountants, in Reno, Nevada. We also performed audit
work at the SSA regional office in Richmond, California. We conducted field work from
August 2003 through April 2004. We conducted our audit in accordance with generally
accepted government auditing standards.

METHODOLOGY
We reviewed the $14,492,984 administrative costs NV-DETR reported on its SSA-4513
for FYs 2001 and 2002. The sampling methodology encompassed the four general
areas of costs reported on the SSA-4513: (1) personnel, (2) medical, (3) indirect, and
(4) all other non-personnel costs. We obtained a data extract of all costs and the
associated invoices for FYs 2001 and 2002 for use in statistical sampling. This was
obtained from the accounting systems used in preparing the SSA-4513.

Personnel Costs

We reviewed 68 employees from 1 randomly selected pay period in FY 2002. We
tested the payroll records to ensure individuals were paid correctly and payroll was
adequately documented.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
medical costs based on the proportion of Medical Evidence of Record and consultative
examination costs to the total medical costs claimed.

Indirect Costs

NV-DDS departmental indirect costs are determined by applying a Federally approved
cost allocation plan. The State-wide indirect costs are computed using a fixed cost
plan. These methodologies were approved by the Department of Labor, which is the
Federal agency designated the responsibility of approving indirect costs for the
NV-DETR. NV-DETR claimed indirect cost of $522,404 for FY 2001 and $522,622 for
FY 2002. We reviewed the FY 2001 and 2002 indirect cost computations to ensure that
SSA reimbursed NV-DETR in compliance with the cost allocation plans.




                                           C-2
All Other Non-personnel Costs

We sampled 100 items (50 expenditures from each FY) using a stratified random
sample based on the proportion of costs in each of the 10 SSA-4513 all other
non-personnel cost categories to the total all other non-personnel cost. In addition, we
reviewed all occupancy costs for each FY.




                                           C-3
                                                                                      Appendix D
OBLIGATIONS REPORTED/ALLOWABLE FOR NEVADA DISABILITY DETERMINATION SERVICES
             FOR FISCAL YEARS 2001 THROUGH 2002, AS OF JUNE 5, 2003


                TOTAL OBLIGATIONS                DISBURSEMENTS              UNLIQUIDATED OBLIGATIONS

  COSTS     REPORTED        ALLOWABLE       REPORTED        ALLOWABLE       REPORTED      ALLOWABLE
            BY NV-DETR       PER AUDIT      BY NV-DETR       PER AUDIT      BY NV-DETR     PER AUDIT

PERSONNEL   $   8,384,200   $   8,384,200   $   8,384,200   $   8,384,200     $       0    $       0

MEDICAL         3,644,771       3,644,771       3,644,771       3,644,771             0            0

INDIRECT        1,045,026       1,045,026       1,045,026       1,045,026             0            0

ALL OTHER       1,418,987       1,418,987       1,418,987       1,418,987             0            0

TOTAL       $ 14,492,984    $ 14,492,984    $ 14,492,984    $ 14,492,984      $       0    $       0
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

   Jack Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

   Brennan Kraje, Statistician

   Kim Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-04-14009.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
